<html>
<title> - AMERICA AND THE IRANIAN POLITICAL REFORM MOVEMENT: FIRST, DO NO HARM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  AMERICA AND THE IRANIAN POLITICAL REFORM MOVEMENT: FIRST, DO NO HARM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2010

                               __________

                           Serial No. 111-93

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
54-940                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
VACANT
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
                      Dalis Adler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mehdi Khalaji, Senior Fellow, The Washington Institute for 
  Near East Policy...............................................    14
Ms. Geneive Abdo, Director, Iran Program, The Century Foundation.    19
Fariborz Ghadar, Ph.D., Distinguished Scholar and Senior Advisor, 
  Center for Strategic and International Studies.................    26
Mr. J. Scott Carpenter, Keston Family Fellow, The Washington 
  Institute for Near East Policy.................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     4
Mr. Mehdi Khalaji: Prepared statement............................    17
Ms. Geneive Abdo: Prepared statement.............................    21
Fariborz Ghadar, Ph.D.: Prepared statement.......................    28
Mr. J. Scott Carpenter: Prepared statement.......................    39

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    62
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    64


  AMERICA AND THE IRANIAN POLITICAL REFORM MOVEMENT: FIRST, DO NO HARM

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:09 p.m. in room 
2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. Our witnesses having come forward; the 
committee is called to order.
    Americans are not very good at sitting still. Patience is 
not our strong suit historically; it has not been a very 
prominent feature of our national character. The terms that 
describe us best most often reflect our restless impatience for 
progress, our natural inclination for pragmatism, and our 
deeply ingrained tendency to focus most of all on getting the 
job done. In foreign affairs, however, the world offers few 
situations that lend themselves to neat, quick, and simple 
solutions.
    It is not that Americans are incapable of patience. We can 
rise to the challenge when necessary, and especially when the 
alternatives offer little hope of success. Following the Second 
World War, a 40-year Cold War was not America's first choice 
for a foreign policy. But the alternatives to slow, grinding, 
vigilant containment of the Soviet Union, when honestly 
examined, led both Democratic and Republican administrations 
right back to containment. With more diplomacy, some with more 
pressure, but all with the same deadly serious goal of 
preventing the expansion of Soviet domination and all committed 
to the eventual collapse of the Communist system under the 
weight of its own failure and fallacies.
    Iran, as I have stated in other hearings, is not the Soviet 
Union. By every measure of size, wealth, capability, and 
influence, it is a vastly smaller, though still a dangerous 
challenge. And I would respectfully suggest that, though the 
temptation is strong, reasoning in the Middle East, by 
historical analogy in Europe, is an invitation to disaster. 
Nevertheless, the situation in Iran today does resonate most 
powerfully with Americans, recalling memories of the late 1980s 
and the collapse of Communism.
    Again a long policy of containment appears to be on the 
cusp of an unexpected but remarkable success borne on the backs 
of oppressed people struggling to be free from a vicious, 
brutal, ideological regime. Moreover, there is a chance that 
this wholly indigenous movement, by virtue of its own success 
and entirely for its own reasons, could bring about an 
incredibly positive shift in the global security environment.
    I don't think anyone believes the current leadership of the 
Islamic Republic of Iran will go quietly or easily into 
retirement, and I think it would be foolish to assume that a 
reformed Iranian Government would automatically be very 
friendly to the United States or be less committed to the 
pursuit of its own national interest. But there is good reason 
to think that a different Iranian Government, one that was 
truly answerable to the aspirations of the Iranian people, 
would transform the politics of the Middle East, dramatically 
change the global struggle against violent Islamic extremism, 
and potentially salvage the global nonproliferation regime.
    With stakes of this scale, American minds, my own included, 
begin to race ahead. How can we help? How can we support the 
green movement? How can we accelerate the demise of this awful 
and irresponsible regime? And so on. The most essential thing, 
I think, is to be patient. Not passive, not indifferent, but 
instead of heeding the inner voice that yells, don't just stand 
there do something, we need to turn this impulse on its head. 
Rather than just doing something, we need to stop and think 
things through.
    Even if there were not a painful history of American 
intervention in Iranian affairs, and even if the Iranian regime 
was not desperate to smear its domestic opponents as American 
lackeys and spies, we should at the very least have some 
humility about the ability of our Government to competently 
shape highly politicized and dynamic events in other nations. I 
would submit as proof the entire previous decade.
    It seems to me that our first obligation is to do no harm. 
And our second obligation is to recognize that we are not a 
doctor and Iran is not a patient. Iran is a sovereign state 
whose people are struggling bravely for their own freedom. It 
is natural and right for us to want to support their struggle. 
The question is how. I would suggest that we start with a 
healthy amount of skepticism about our ability to shape 
political developments in other countries and a firm respect 
for the sovereignty and independence of Iran.
    With these caveats, I believe there are some important 
things that we can and should do, all of which can be done 
publicly and outside of Iran. First, I think it essential that 
the President and the Secretary of State continue to regularly 
comment on the situation within Iran. I think the President's 
inclusion of Iran in his State of the Union Address was very 
important, and I would want to highlight the very strong 
remarks made by Secretary Clinton following the regime's 
violence against protesters during the observance of Ashura in 
December of last year.
    Second, I think the White House and the State Department in 
their daily briefings should draw attention to events in Iran 
as they occur and make clear the views of the United States 
when there is violence or reports of severe violations of human 
rights. Third, the United States along with other nations must 
assure that we are actually committed to the international 
human rights, should press within the United Nations the issue 
of Iran's repression of its own people, if possible in the 
Security Council and at least within the Third Committee, and 
in the Human Rights Council. Every nation should be given the 
chance to stand with the people of Iran.
    Finally, I am convinced that the United States must 
continue to work with our international partners to apply 
sanctions on the Government of Iran for its defiance of U.N. 
Security Council resolutions and for its violations of its IAEA 
Safeguards agreement. Both the House and the Senate have passed 
gasoline sanctions, and I look forward to working with the 
Obama administration to find a way forward on this legislation. 
Our goal must be to ensure the maximum impact on the Iranian 
Government with the minimum harm to our diplomatic efforts and 
to the people of Iran who are struggling for their freedom.
    What I hold to be essential is that we must act and that we 
must act in concert with others if at all possible. The Iranian 
regime is facing pressure from within unlike anything it has 
ever felt before. To the extent that we can heighten that 
pressure by political and economic sanctions, I believe we are 
absolutely bound to do so.
    [The prepared statement of Mr. Ackerman 
follows:]<greek-l>Ackerman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. I would like to call on my distinguished 
partner in these hearings, the ranking member, the 
distinguished gentleman from Indiana, Mr. Burton.
    Mr. Burton. You know, when you say those nice things, I 
always wish, Mr. Chairman, my wife was here to hear it, she 
doesn't appreciate me that much. Mr. Chairman, thank you for 
convening today's hearing regarding the growing political 
opposition movement in Iran and what this movement might mean 
for U.S. relations with Iran in general, and specifically in 
our efforts to stop Iran from acquiring a nuclear weapons 
capability.
    On June the 12th, 2009, Mahmoud Ahmadinejad was ostensibly 
reelected to his second term as President of Iran. Within 48 
hours of Iranian officials announcing his landslide 62.6 
percent victory in what outside observers widely expected to be 
a close contest, Tehran and other cities throughout the country 
were overwhelmed with protesters in response to what the people 
of Iran knew to be a rigged election.
    The immediate response by the Obama administration was, in 
my opinion, weak. In a statement released to the media, the 
President said he was ``deeply troubled by the violence that I 
have seen and been seeing on television.'' He went on to say, 
``I can't state definitively one way or another what happened 
with respect to the election, but what I can say is that there 
appears to be a sense on the part of the people who were so 
hopeful and so engaged and so committed to democracy who now 
feel betrayed.''
    This, in my opinion, was a tepid and half-hearted 
endorsement of freedom in Iran, whereas the President should 
have immediately and forcefully denounced a sham 
election<greek-l>s deg., indicated U.S. support for the 
demonstrators, and called on other nations to do the same. 
Furthermore, he should have used the crisis to rally additional 
international support for sanctions aimed at stopping Iran's 
quest for nuclear weapons. Instead, the administration, naive 
in my opinion in its policy of engagement with Iran, more than 
likely squandered the chance for real political change from 
within by failing to speak out against a regime's brutal 
oppression of its people when it mattered the most.
    There are some, as evidenced in the title of this hearing, 
``First, Do No Harm,'' who believe the President was right to 
be measured in his response to the crisis, believing that an 
excessive degree of interventionism from the United States 
would have backfired and hardened Tehran's determination not to 
negotiate with the United States and the international 
community over its nuclear program. Again, I believe this 
reasoning is flawed because Tehran has never wavered in its 
nuclear ambition.
    A year has now passed since the President first reached out 
to Iran in a bid to engage the regime. In this time, Iran has 
responded to President Obama's open hand by continually and 
continuing to defiantly maintain its uranium enrichment 
program, calling for the destruction of Israel, pursuing long 
range missile weaponry, working to destabilize the peace 
process in the region, and supplying weapons to terrorist 
groups such as Hezbollah and Hamas.
    Iran has no interest in resolving the dispute over its 
nuclear program, and has skillfully outmaneuvered the Obama 
administration into giving the regime 1 more year to go get 
closer to acquiring an atomic bomb. The administration may 
finally be getting wise to Iran's diplomatic shell game. As we 
speak, the United States is dispatching patriot defensive 
missiles to four Persian Gulf countries--Qatar, the United Arab 
Emirates, Bahrain, and Kuwait--and moving U.S. war ships into 
the gulf which are capable of shooting down Iranian missiles.
    In addition, the President's Ambassador to the United 
Nations, Susan Rice, is preparing a new sanctions resolution, 
the fourth in 4 years, for the United Nations Security Council 
to consider. And finally, the Congressional leadership has also 
lifted its block on the Iran Refined Petroleum Sanctions Act as 
it recently passed both the House and Senate. And, Mr. 
Chairman, I hope we will talk to the chairman of the full 
committee and make sure we get this bill through Congress as 
quickly as possible and send it to the President without 
further delay.
    Unfortunately, the President's timing with regards to Iran 
seems wrought with irony. As he begins to finally close his 
open hand into a fist, we see that the regime that never once 
attempted to unclench its own fist now seems to be gaining back 
its footing. I more than anyone hope for the sake of national 
and regional security and for the sake of the people of Iran 
that we have not done too little too late. Thank you, Mr. 
Chairman.
    Mr. Ackerman. You are very welcome. And a copy of my 
remarks will be sent to your wife.
    Mr. Burton. Thank you.
    Mr. Ackerman. Mr. Ellison.
    Mr. Ellison. Mr. Chair, are these my opening remarks or my 
questions?
    Mr. Ackerman. Your opening remarks, and we will have your 
questions after your opening remarks.
    Mr. Ellison. Well, Mr. Chairman, let me thank you for this 
hearing. I think that it is extremely well timed and well 
titled. I think we should be trying to learn more about how we 
can help improve the well being of the people of Iran without 
exacerbating any problems that may be existing. For me, I think 
we should avoid a ham-handed meat cleaver approach, and I think 
we should use all deliberate information to be as most skillful 
and effective as we can.
    I think it is important that we have signal and are 
beginning to broaden our portfolio and demonstrate not only 
that we are concerned about nuclear proliferation but that we 
are also concerned about the welfare and human rights and other 
people of Iran. And so I am glad that we have embarked on this 
path, and I think it is very important that we do so. I will 
say that, you know, the United States and Iran have a long 
history. We have a very long history and it is complicated, and 
the fact is that those of us in the United States don't know 
nearly enough about it.
    But some of the things that have happened in the course of 
this relationship people in Iran are very painfully aware of. 
And so it is important that we put a premium on effectiveness 
and that we build a international consensus as President 
Obama's overtures have begun to do, and that we act decisively 
to protect the world from nuclear proliferation and equally 
promote the civil and human rights and well being of the people 
of Iran, who have a long, long, long history of creativity and 
contributions to the entire world. So with that, I thank you 
again, and I look forward to hearing from our witnesses.
    Mr. Ackerman. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. I want to identify myself 
with Mr. Burton's remarks, I am very skeptical that our 
President has had a policy that will in some way take advantage 
of the opportunity we have in Iran. I think that what the 
President has been doing unfortunately has actually hindered 
the efforts of the free people of Iran from achieving their 
goal, which is a mutual goal we should have, which is 
displacing this repressive mullah regime that threatens the 
peace of the world but also threatens each and every one of 
their families in Iran.
    Let me just note that I agree with the chairman that change 
is absolutely necessary in that region for all of our sake. But 
what I would disagree with, Mr. Chairman, is your call for 
patience. The time for patience is over, it is long over. We 
should have been engaged in a very active way a long time ago. 
And we have had plenty of time to think about what our strategy 
is. Let us just note that containment did not end the Cold War. 
Mr. Chairman, I respectfully disagree with your assessment.
    Containment didn't end the Cold War. Had we continued with 
a containment strategy, the Soviet Union would still exist, it 
would still have all its missiles aimed at us, and the world 
would be a lot less safe. Ronald Reagan initiated a plan, a 
strategy, of rolling back the Communist world, rolling them 
back by supporting those elements within those Communist 
countries which would fight tyranny in their countries and thus 
accomplish the goal that was mutually beneficial to all free 
people, which is expanding the realm of freedom and displacing 
antidemocratic tyrants which then were in charge of the Soviet 
Union.
    We should have been doing the same with the people of Iran 
all of these years, not just this administration but the last 
administration. The people of Iran should have not only 
unequivocally known that we were on their side, but that we 
have actually provided them with the resources that they need 
to succeed. A solidarity movement in Poland didn't just emerge 
out of nowhere. We helped the solidarity movement, we helped 
the mujahedin, we helped the Contras, we helped those fighting 
the Cuban mercenaries in Africa. And the bottom line is, 
Communism did disintegrate, but that was not containment.
    We have contained radical elements in Iran for too long. 
Containing them in power will lead us to a more dangerous 
world. We should have an offensive strategy aimed at helping 
the freedom loving people of Iran who are our greatest allies. 
We should do it overtly if necessary. We must side with the 
oppressed people in order to fight the oppressor, and that will 
make it a more peaceful world and a more successful strategy.
    I appreciate you holding this hearing so this type of 
discussion can go on between us and these expert witnesses, and 
perhaps we can send a message today to those brave people on 
the streets of Tehran who are putting their lives on the line 
to stand up for their own freedom and democracy. We are on 
their side, no if or buts about it, we are on their side and 
opposed to the mullah regime. It is time for the mullahs to go 
back to the mosque.
    Mr. Ackerman. Appreciate the gentleman's support for 
separation of mosque and state, and I do appreciate your 
conclusions, but I am reluctant to turn the hearing into a 
debate over which President has had more patience, those who 
had 8 years of patience including President Reagan and 8 years 
of patience with President Bush without actually doing anything 
provocative, and I don't know that we now have to run out of 
patience after 1 year. But let us commit to work together to 
try to encourage the things that we want to see accomplished by 
our country, because our failure to do so is not our 
President's failure but our nation's failure. Now Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. And I would like to 
associate myself with those more recent remarks, because there 
have been many Presidents of both parties since the 1940s who 
opposed Communism in lots of different ways, and it just so 
happened in 1989 under the first President Bush's watch that 
system came down after many, many years. But, Mr. Chairman, I 
want to thank you for holding this hearing today and I would 
like to welcome our distinguished panel to the subcommittee.
    Since last summer the political tension in Iran has 
continued to capture the international community's attention. 
Today we are here to discuss what the U.S. role should be as 
the green movement continues to make its presence known. The 
Obama administration is reportedly debating whether to 
deemphasize or abandon outright engagement efforts with Iran 
and help the green movement. Therefore, do you think these 
protests offer an opportunity for the U.S. Government to ramp 
up its democracy promotion efforts or should we step back and 
let them address it internally?
    Are we correct in even viewing the reform movement as 
significant? I remember the 1990s when Iranian leaders entered 
office with strong support from various pro-reform 
constituencies, yet despite that public support for reform, the 
Supreme Leader and key conservative allies successfully limited 
their ability to carry out the reforms by tying up the key 
legislations and the appointed legislative review bodies and 
used their control over the key oversight bodies to shape the 
election outcomes. It wasn't necessarily in the streets it was 
being shaped, it was actually in the government. Therefore I am 
interested in our panel's assessment for the prospects of the 
opposition to bring on major changes.
    Is the violent crackdown on the opposition a sign that the 
current government is weak? That is another question. And if 
the green movement is ultimately successful in acquiring a 
leadership position or even concessions from the current 
government, how would such an outcome affect Iran's foreign and 
nuclear policies and therefore our interest in the Middle East? 
As a strong supporter of H.R. 2194 The Iran Refined Petroleum 
Sanctions Act, I am interested in whether our panel believes 
these sanctions are consistent with the goals of the opposition 
movement. And, Mr. Chairman, I appreciate their testimony, I 
yield back my time.
    Mr. Ackerman. Thank you, Mr. Green. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
hearing today, and I welcome all of our distinguished panelists 
as well. Mr. Chairman, as we have spoken of many times, I 
believe that unless we improve our strategy the world is going 
to awake very soon to the headline that Iran has a nuclear 
bomb. For many years the United States and world powers have 
tried various tactics to halt the nuclear ambitions of Tehran's 
clerical elites. They have in essence litigated Iran's case in 
the National Security Council, they have imposed several rounds 
of economic sanctions, and they have tried to engage Iran with 
diplomacy, most recently with a deal that could have begun the 
long process of normalization of relations.
    But through all of this, as we are very much aware, Iran's 
leaders have not blinked as they move closer and closer to the 
ability to make nuclear weapons on short notice. Tehran doubts 
the collective resolve of world powers. And it is not difficult 
to see why. European corporations continue to do business with 
Iran, Russia exploits the international rile over Iran's 
nuclear program for its own geopolitical gain, in maneuvering 
China seeks to profit. And this international deadlock over 
Iran's nuclear intransigence certainly seems bleak.
    But in the last 6 months, Mr. Chairman, we have seen 
something fairly remarkable and something that has stunned the 
leaders in Iran, something that could help us eventually 
transcend these international deadlocks. In June, everyday 
Iranians started to take to the streets to protest the 
Presidential election's controversial outcome. In Tehran alone, 
crowds of demonstrators swelled up to the hundreds of 
thousands. These protests were nothing short of remarkable.
    Indeed, Iran has not seen such demonstrations since 1979, 
the infamous year since the theocrats that reign in Tehran 
today first seized power. Iran's leaders were initially caught 
flat-footed by these protests, but they quickly mounted a 
counteroffensive, and over the following days and months 
Tehran's crackdown became ever more brutal. YouTube enabled the 
world to witness some of this brutality and the barbaric 
shooting in broad daylight of one female demonstrator whose 
name is now chanted by crowds.
    News networks broadcast in real time the violent clashes 
between regime-sponsored militia and protesters. The 
international media reported the shocking slayings of 
opposition figures on the holy day of Ashura in late December. 
And among those who were killed was Ali Mousavi, a nephew of 
the man whom the opposition views as the rightful winner of the 
contested Presidential election. Yet the Iranian regime's 
escalating violence has seemed to embolden the Iranian people's 
resolve.
    What started out as a series of protests quickly became 
something else, it became a movement. By year's end, 
demonstrators throughout Iran were calling not for a mere 
recount, they were challenging the legitimacy of Tehran's 
clerical authoritarian regime. While we in Washington focus, 
appropriately so, on a new round of sanctions, many Iranian 
people continue to risk their lives in the country's growing 
protest movement. They continue to brave the regime's fists, 
clubs, water hoses, and bullets to take to the street. They 
continue to defiantly hold signs and chant slogans, not just in 
Farsi but in English, so that the whole world might know their 
call for dignity and justice.
    With this growing mass protest movement, everyday Iranians 
have accomplished what sanctions and other forms of 
multilateral pressure aim to do, create the conditions for 
change in Tehran. Again, Mr. Chairman, while I support the new 
sanction, I believe it is time, and you alluded to this as 
well, for the White House and the Congress and the entire 
international community to elevate the Iranian people's 
struggle to the center of the world stage. The Iranian people 
deserve a more moderate, reasonable, and just government in 
Tehran, and the Iranian people may be the last and best hope 
for halting Iran's drive for nuclear weapons capability, and it 
may be the Iranian people who help avoid a nuclear arms race in 
the Middle East. I yield back, Mr. Chairman.
    Mr. Ackerman. Thank you very much. Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. I look forward to 
hearing from the expert witnesses this afternoon. And I would 
just add, I don't have an opening statement, but I don't think 
any human being who watches or listens to 24/7 news has missed 
at least in passing even what has taken place in Iran over the 
past year. Just some very moving, nonprofessional, everyday 
human beings, and they are capturing on either cell phones or 
iPods the images of brutality within the Ahmadinejad regime.
    I also think we do disservice to that heroism by, at least 
from this side of the world, trying to cast blame, and I think 
time ought to be focused more on what can we do to make a 
difference, to let the Iranian people know that we are 
concerned about them? We know that their desire is to have a 
healthy, respectful relationship with the West, and 
particularly with the United States, and that there are people 
suffering in that country today because of radicalism and 
fundamentalism. And whatever we can do to help change that is 
what I think the focus ought to be.
    And respectfully say to my colleagues, I have been moved by 
it, and what these people go through, the bravery that has been 
demonstrated, by those who are on trial today even for their 
protest, is remarkable and something that every American ought 
to be made aware of. So, Mr. Chairman, with that, I don't want 
to go on any more than I have, I am interested in hearing the 
testimony of your witnesses. And with that I will yield back 
the balance of my time.
    Mr. Ackerman. Thank you very much. Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. A big problem we have 
is that the Obama administration seems to act as if the June 
election in Iran never happened. Not long ago, an Iran expert 
noted that the administration views the democratic movement 
inside Iran, to use his words, ``as a wrench in the works of 
nuclear negotiations.'' I think that there is an inability here 
to see things as they are right now in Iran.
    After the brutal crackdown on the religious holiday of 
Ashura, the President did speak out somewhat more forcibly. I 
will grant that. With oppositionists denouncing the Supreme 
Leader by name and demanding the dismantling of the Islamic 
regime, he didn't have much choice at that point. Indeed, we 
will hear testimony today that ``even staunch conservatives and 
hardline clerics have now joined the opponents of 
Ahmadinejad.'' We will also hear that the ``sanctity around 
Supreme Leader Khamenei has been shattered.''
    Despite some rhetoric on human rights in Iran, the Obama 
administration hasn't committed the needed resources to 
creatively encourage change. There is no full throttle support 
for the Iranian democracy movement in the budget that landed in 
Congress this week. Instead, the administration seems intent on 
a regime-centered approach. But I would ask this, which is more 
likely, what is the more likely thing we will see, a verifiable 
nuclear deal with the current regime, or the opposition 
movement's success?
    The regime in Iran probably doesn't fear another round of 
``least common denominator'' U.N. sanctions, and that is 
increasingly what these are being termed. But it is downright 
paranoid, that regime in Iran is downright paranoid, of a color 
revolution. It is paranoid of the feelings of the people in 
Iran that we have seen expressed on the street. Next week on 
February 11th, large protests are being planned to coincide 
with the anniversary of the Islamic Revolution.
    The year that the people of Iran as we watch 
internationally and the media that is broadcast out of Iran, 
they seem to indicate to us that if past protests are a guide, 
many in the street will be asking again whether President Obama 
is ``with them or against them.'' I hope he is ready to clarify 
that answer to that question, because to be on the right side 
of history is to be speaking out forcefully for the people who 
are taking these risks and going to the streets in Iran. Thank 
you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this important hearing today, I am looking forward to the 
witnesses. I will be brief. I think that the administration 
does need to voice in a stronger fashion their support for what 
is being heard around the world as these Iranians take 
tremendous risks of their own lives and their families' lives 
to protest the outrage in the election that was circumvented, 
the results that were circumvented last year.
    Clearly there is nothing more powerful than those within 
the country that are being oppressed and are reacting to that 
oppression. I will be looking for the witnesses to in their 
testimony let us get a better sense of how widespread that is, 
and how it is impacting what has been the formal opposition as 
well as the informal opposition to the current regime, and how 
it deals with the ruling body and what sense you have as to the 
debate and the turmoil that may be taking place within that 
structured element of the regime.
    So it just seems to me that there is an opportunity to not 
just focus on sanctions, which sadly have not seemed to have 
much effect at this time, and we know where this regime is 
headed if left to their own devices. So it seems to me that 
this is a time to recalibrate the efforts that took place last 
year that have not been successful and to focus on taking 
advantage of the opportunities that are now before us, and I 
would like the witnesses to tell us what you think those 
opportunities are. So with that said, I will yield the balance 
of my time and look forward to the witnesses.
    Mr. Ackerman. Thank you very much. I will now introduce our 
witnesses. Mehdi Khalaji is a senior fellow at the Washington 
Institute for Near East Policy. Mr. Khalaji focuses on Iranian 
politics and the politics of Shia groups in the Middle East. 
From 1986 to 2000, Mr. Khalaji trained in the Seminaries of Qom 
studying theology and jurisprudence and earned his doctorate 
researching intellectual and philosophical political 
developments in Iran and the wider Islamic and Western worlds. 
Mr. Khalaji pursued a career in journalism at two Iranian 
publications, then working for BBC Persian as a political 
analyst of Iranian affairs, and eventually becoming a 
broadcaster for Radio Farda.
    Geneive Abdo is a foreign policy fellow and director of the 
Iran Program at the Century Foundation. Prior to joining the 
Century Foundation Ms. Abdo, was the Liaison Officer for the 
Alliance for Civilizations, a U.N. initiative under then 
Secretary General Kofi Annan. Prior to her tenure with the 
U.N., Ms. Abdo spent 20 years as a foreign correspondent for 
The Guardian, The Economist, The Dallas Morning News, and 
Reuters, and has contributed to many other publications 
focusing on the Middle East and the Muslim world.
    Fariborz Ghadar is a distinguished scholar and senior 
advisor at the Center for Strategic and International Studies. 
Dr. Ghadar is a professor and founding director for the Center 
of Global Business Studies at Penn State University. During his 
career he has focused on global business, economics and 
finance, and has worked as an investment banker at the World 
Bank. He has been a consultant to a score of businesses and 
governments, but served last in government as a Vice Minister 
in the Shah of Iran's Government.
    Finally, Scott Carpenter is the Keston Family fellow at the 
Washington Institute for Near East Policy and director of 
Project Fikra, which focuses on empowering Arab democrats--that 
is with a small ``d''--in their struggle against extremism. 
From 2004 to 2007, Mr. Carpenter served as Deputy Assistant 
Secretary of State in the Bureau of Near Eastern Affairs, and 
in 2006 was named Coordinator for the State Department's 
Broader Middle East and North Africa Initiative. Mr. Carpenter 
also served in the Coalition Provisional Authority in Iraq, and 
before coming to the State Department at the International 
Republican--that is with a capital ``R''--Institute.
    Without objection, each of our witnesses' full statements 
will be entered into the record, and I would ask you each to 
summarize your testimony in about 5 minutes. The lights are in 
front of you, and we can move directly to questions after each 
of our witnesses presents their testimony to us. Thank you very 
much, we will begin with Mr. Khalaji. Press the button on your 
microphone and move it a little bit closer, if you would.

 STATEMENT OF MR. MEHDI KHALAJI, SENIOR FELLOW, THE WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Khalaji. Yes. Mr. Chairman, Ranking Member Mr. Burton, 
and members of the subcommittee, thank you very much for having 
me here and giving me this opportunity to testify before you. 
The current democratic movement in Iran, which began after the 
big Presidential election in June 2009 is a nonviolent movement 
which aims to rely on itself without asking for foreign help. 
The people involved in this movement believe that democracy is 
not a gift that can be received by others, but rather an 
internal effort of a people to emancipate itself from tyranny 
and realize its dream of justice, freedom, and national 
sovereignty.
    The Iranian people appreciate President Barak Obama's 
policy of not intervening in Iranian political affairs and 
allowing them to manage their way toward democracy. Therefore, 
any policy toward Iran should be chosen in a prudent and 
cautious way that would not affect the democratic movement in a 
negative manner. My experience with political activists who are 
involved in the green movement is that they do not expect any 
direct help from the United States or any other foreign power, 
but a close look at the Iranian situation reveals that in this 
specifically historical moment, the interest of the 
international community and the democratic interest of Iranians 
are in confluence.
    To be sure, the focus of international community is on the 
Iranian nuclear program, while the main preoccupation of 
Iranian people is securing basic political and human rights and 
integrating the country into the international community. 
However, peace in the region and democracy in Iran now seem to 
be inseparable because the same forces that threaten the peace 
are the same powers in Iran who threaten democracy and run the 
repressive machinery against the Iranian people.
    The threat to regional peace and Iranian democracy are the 
same: The Islamic Revolutionary Guard Corp, IRGC. IRGC is not 
only the main body in charge of the Iranian nuclear program, 
but also is the most effective means for political suppression 
in the hands of Ayatollah Ali Khamenei, Iran's leader and 
commander in chief. The Islamic Republic is nothing but an 
economic-religious-military complex that applies its coercive 
power not through political institutions but through a military 
and security apparatus under the direct supervision of 
Ayatollah Khamenei.
    His religious authority is contested by clerical 
establishment. The only power base he has is within the 
military and security community of the country. Khamenei has 
lost much of his political and religious legitimacy, and 
without the military, and especially IRGC, he would have no 
real power. Since coming to power, Ayatollah Khamenei has never 
given an interview to the media. He does not feel any sense of 
responsibility to the people, driving his power from Iran's oil 
income.
    In practice, he is accountable before nobody despite the 
constitutional provision for an assembly of experts to 
supervise his leadership. Because he bids who can run for this 
assembly, he directly controls dozens of foundations that own 
some of the wealthiest companies in Iran and is not accountable 
before the Parliament or the government. The IRGC, whose 
commanders he appoints, and its affiliates control one third of 
Iran's national income, dominating construction, oil field 
services, and telecommunications among other industries.
    In order to stop Iran's suspicious nuclear activities, the 
international community needs to apply pressure on the IRGC, 
which not only threatens the region through a suspicious 
nuclear program but is using the Quds force as symmetrical 
warfare and support for extremist groups to try to weaken Sunni 
allies of the United States and sabotage the Arab-Israeli peace 
process and the budding democratic process in Afghanistan and 
Iraq.
    Democracy and peace can be achieved through weakening the 
military government in Tehran and pressuring the IRGC. The two 
parallel tracks, the international community's effort for peace 
and the Iranian people's democratic movement, naturally 
reinforce each other because they fight with the same enemy. 
Therefore, the main mechanism for supporting the democratic 
movement in Iran is to target the financial and military 
capability of IRGC.
    Mr. Ackerman. If you can begin to sum up.
    Mr. Khalaji. Yes. A more powerful IRGC would result in a 
more militarized government, and a more militarized government 
is more likely to militarize the nuclear program for dangerous 
purposes. Thank you.
    [The prepared statement of Mr. Khalaji 
follows:]<greek-l>Mehdi Khalaji deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Ackerman. Thank you. Ms. Abdo.

  STATEMENT OF MS. GENEIVE ABDO, DIRECTOR, IRAN PROGRAM, THE 
                       CENTURY FOUNDATION

    Ms. Abdo. Good afternoon, Mr. Chairman and members of the 
committee. I am extremely honored to have this opportunity to 
discuss the opposition movement in Iran with you and policy 
approaches the United States could take in order to encourage 
the opposition movement. My perspective is based upon my first 
hand experience with Iran's leaders and civil society when I 
worked in Tehran as a correspondent for The Guardian newspaper 
from 1998 to 2001.
    The opposition protests have become an ever present force 
in Iranian politics. It is apparent from the recent 
demonstrations in December that the protesters have become more 
determined and more radicalized. Perhaps the most significant 
outcome of the protest movement is that the sanctity around 
Supreme Leader Khamenei has been shattered. He no longer is 
respected as a powerful political authority, nor is he 
considered a religious leader with divine attributes.
    Moreover, the concept of supreme clerical rule, viewed by 
many now as a form of government that inevitably leads to 
despotism, should be abolished. It is clear now that a country 
which once aspired to be an Islamic state and a republic cannot 
withstand all power concentrated in the hands of one Ayatollah. 
As a result, in the eyes of many Iranians, the Islamic Republic 
of Iran is no longer an Islamic state or a republic.
    Seven months after the Presidential election, it is 
impossible to determine the outcome of this conflict. However, 
in the short term it is safe to assume that the state will 
prevail through the use of excessive force and violence, 
particularly through the Islamic Revolutionary Guards. The 
strength of the opposition movement for this reason is of 
supreme importance now, and the United States' action and 
assistance to this movement is extremely important.
    A strong opposition movement provides the West with 
leverage against the regime. For these reasons and many others, 
it is important for the United States to assist those people as 
part of this movement who are trying to reform the system, even 
if a reform state still means that a theocracy remains in 
power. So who is the opposition movement? The movement is not 
restricted only to street protesters. Increasingly the 
opposition is gaining the support of traditional and religious 
Iranians, and this is very important, who have historically 
supported the hardliners around Supreme Leader Khamenei.
    A groundbreaking survey was recently published that 
provides evidence of this complete defection of the traditional 
base that once supported President Ahmadinejad. Many Iranians 
living in the provinces, which had been the base of his 
support, now are part of the opposition movement. Another 
important feature of this movement today is that it has 
abandoned the ideological underpinnings of the Islamic 
Revolution. They no longer believe in an Islamic state, at 
least that part of the movement that is the younger generation.
    Perhaps this is only the minority of the movement, we don't 
know, it is difficult to assess the percentages. However, the 
opposition generally is effectively depriving the regime of its 
revolutionary ideology, and this is something that the United 
States could certainly exploit. So regarding the expectations 
that the opposition movement has from the United States, I have 
made a short list. One of the primary, I think, avenues that 
the opposition thinks that the United States could take would 
be toward highlighting the human rights violations through the 
United Nations.
    The United States could pressure Iran's regime on its 
abysmal human rights record somehow through the United Nations 
if not through the Human Rights Commission that is part of the 
U.N. The opposition believes that a U.N. tribunal could 
investigate the torture and killings of demonstrators and other 
dissidents. This would highlight their abysmal human rights 
record before the international community, but more importantly 
it could cause a lot of Iranians inside Iran who now still 
support the system to understand that the Islamic Republic is 
no longer behaving as an Islamic state.
    The opposition movement is dependent upon the Internet and 
social networking in order to communicate with Iranians inside 
and outside the country and to organize protests. 
Oppositionists want the United States to provide technical 
assistance to run and maintain anti-government Web sites, and 
also enable them to communicate when the regime blocks Internet 
sites and social networks. They want, for example, anti-
filtering software that would be immune to government 
interference.
    The United States also should pressure foreign 
telecommunications firms not to sell telecommunications 
technology to Iran and to refuse to ship technology that has 
already been purchased. The opposition also believes that the 
United States should signal to Tehran that Washington does not 
recognize the legitimacy of President Ahmadinejad's 
administration due to the rigged election.
    Mr. Ackerman. If you could begin to wrap up.
    Ms. Abdo. Okay, thank you. Activists and NGOs, such as 
Women and the Million Signature campaign, whose members have 
been arrested and interrogated, believe that they would benefit 
from the opportunity to network with other NGOs from the region 
and from the United States. They believe that such workshops 
and training could help them develop their strategies inside 
the country. In conclusion, the green movement is not searching 
for grand gestures from the United States. However, modest 
steps, particularly those that would address the lack of human 
rights and the absence of political liberalization would give 
the opposition more legitimacy in Iranian society. This kind of 
assistance, they believe, could come from the United States. 
Thank you very much.
    [The prepared statement of Ms. Abdo 
follows:]<greek-l>Geneive Abdo deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you. Dr. Ghadar.

STATEMENT OF FARIBORZ GHADAR, PH.D., DISTINGUISHED SCHOLAR AND 
 SENIOR ADVISOR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Ghadar. Chairman Ackerman, Ranking Member Burton, and 
distinguished members of the House Committee on Foreign 
Affairs, I am honored to have been invited by the committee to 
testify today about America and the Iranian political reform 
movement. I will be testifying today in my capacity as 
distinguished scholar and senior advisor at the Center for 
Strategic and International Studies and a professor of business 
at Smeal College of Penn State University.
    Chairman Ackerman and the members of the committee 
eloquently described the mess that Iran is in right now. The 
latest events in Iran are symptoms of a tectonic shift in 
Iran's political environment. The regime has been using the 
Basij and the paramilitary guards to beat up on protesters. If 
you look at last week, we had recent conciliatory movements by 
both Karoubi and Mousavi to reconcile to a certain extent with 
Khamenei. Khamenei did not respond to that.
    The opposition has asked for participating on February 11th 
in a massive demonstration but in a peaceful matter. We don't 
know what the outcome will be, but there are three possible 
outcomes. The Revolutionary Guards will beat down the 
opposition into the underground for them to raise another day, 
a compromise will finally be worked out among the different 
factions of the regime, or the demise of the regime as we know 
it will occur.
    Given the uncertainty and the demand for freedom from 
oppression by the public, but also for independence, we should 
not take sides in the future nature of the regime. We should 
not endorse a candidate or a party or even a constitution. 
These matters are up to the Iranian public. A wise strategy is 
one that informs the Iranian public and ensures that their 
voices are heard. That we can do. The opposition, however, 
needs to know that we will not use them as a chip that is 
traded away to the Iranian regime.
    A successful strategy is to respond to the aspiration of 
the Iranian people, the aspirations that are ignored by their 
own regime. The Iranian public, as many mentioned, is pro-
America. What Iranians want, freedom and independence. Various 
surveys and polls show that zotsmosmd would like to promote 
economic development, share technology, create employment, and 
have a closer relationship with our country.
    The great majority of the Iranian population, as was 
mentioned, are young people, technologically advanced, unhappy 
with the situation, the way they are being treated, and the 
social restrictions. They are, however, at the same time 
concerned about the U.S. Government. The fear is partially due 
to the potential military attack or expanded sanctions. Neither 
of these policies is going to be successful. Military action 
would likely galvanize Iranian society against attackers, delay 
the nuclear program by a limited lies, and encourage the 
hardliners to go after nuclear bombs.
    Sanctions can be broken down into three categories: Trade 
sanctions, which have not been successful; investment sanctions 
on foreign direct investments, which have been successful; and 
fund flows, controlling the funds that go to the Revolutionary 
Guard and target it and confiscate it. Based on the desire of 
independence and at the same time freedom, I suggest the 
following. Continue and expand our broadcasts highlighting the 
mismanagement and corruption that exists in the system.
    Ahmadinejad in his first election talked about corruption, 
sat there piously in front of his house and showed that his 
house is very small while his opposition lived in mansions. He 
tried to do the same thing in the recent election on 
television, but that did not sit well with everyone. Broadcast 
Iran's economic performance. The economic performance has been 
miserable. Corruption, nepotism, disregard for meritocracy, is 
just rampant.
    In fact, Iranians often compare themselves to the Turks. In 
the past 30 years the GDP per capita in Iran has been 
practically stagnant, while the Turks' GDP per capita has grown 
four fold. Iranians visit Turkey, see that, but not only that, 
the Azeris across the border are doing much better than the 
Azeris in northern Iran, the Arabs are doing much better across 
the Gulf than they are in Iran. Continue broadcasting the 
brutality and the lack of human rights, which were mentioned 
earlier. Show how the Revolutionary Guard and senior leaders 
have pilfered the economy and show how they have passed the 
money around.
    Continue to target and confiscate Iran's Revolutionary 
investments, and at the same time while targeting them, 
sanction it to prevent civilians, so for example civilian 
airlines from being repaired. It may seem heartless, but 
enhancing sanctions to prevent electronic gear that allows the 
government to control what is going on would be very helpful. I 
believe that we are at a critical point in dealing with the 
Iranian regime. The Iranians are already ready to take major 
action. They want independence, and at the same time they want 
freedom. We can assist in both without interfering. Thank you, 
Chairman.
    [The prepared statement of Mr. Ghadar 
follows:]<greek-l>Fariborz Ghadar deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you. Mr. Carpenter.

STATEMENT OF MR. J. SCOTT CARPENTER, KESTON FAMILY FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Carpenter. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Burton, distinguished members of the 
subcommittee, thank you for the timely opportunity to testify 
before you today. For most of its history, the United States 
has sought to support freedom and opportunity abroad, knowing 
that free peoples properly concerned with their own hopes and 
dreams, to not to be enemies and indeed often become partners. 
As we come together to apply this principle to Iran, the 
subcommittee sounds a note of caution, urging us to first do no 
harm.
    In my experience, however, working on the inside at the 
State Department, this seemingly appropriate, reasonable tone 
often becomes an excuse for hand wringing and paralysis. 
Creativity and a willingness to take a modicum of risk are 
suborn by the simple phrase uttered all too often, we have to 
be sure that whatever we do does not put them at greater risk, 
whether the them is Zimbabwean labor activists, Egyptian 
bloggers, Chinese civil rights lawyers, or others.
    For this reason, I take my cue from the activists 
themselves. Surely they know better than we the risks that they 
are prepared to take for their freedom. The U.S. Government's 
responsibility therefore should be to make a clear offer of 
support for them to take up or not as they choose. In the case 
of Iran's green movement, so much more. The green movement 
represents the latest iteration of a century-long effort to 
forge a constitutional republic based on pluralism and 
democracy.
    Since 1906 this strive has been thwarted, first by monarchs 
and later by theocrats, often aided and abetted by outside 
powers, including the U.S. Today, the Islamic regime has 
unleashed increasingly brutal waves of violence against its own 
people, as we have heard. Yet in the face of this violence, 
people in the streets are calling on the Obama administration 
to support them. Demonstrators in November chanted, Obama, 
Obama, are you with us or are you with them? We would be 
foolish to think that they were asking this rhetorically.
    As several Iranian-Americans have noted, the goal of 
protesters holding signs in English is not simply to show off 
their linguistic ability. Given our principles and their calls 
for support, it is critical that the U.S. avail itself of this 
opportunity and responsibility to get it right. Too often when 
it comes to the people of Iran we have come down on the wrong 
side of history, as we did in 1953 and again in the lead up to 
the revolution in 1979. As one green movement activist put it 
to me recently in Brussels, if the United States thought 
relations between it and Iran were strained after the Musaddeq 
coup, just wait until Washington betrays the green movement.
    So what should the U.S. do? In my view, it is time for the 
Obama administration to launch a comprehensive offensive to 
challenge the regime on human rights grounds. In my written 
testimony I have made a number of recommendations but will 
highlight just a few here. First, future policy actions must be 
set squarely within the context of human rights. If the U.S. 
imposes targeted even more broad-based sanctions, link it to 
human rights violations of the IRGC and the Basij.
    The administration should make it known publicly that it is 
planning for the eventuality of a democratic government coming 
to power in Iran by working with Congress to prepare the 
necessary legal groundwork to lift sanctions and remove Iran 
from a list of state sponsors of terrorism. It should 
articulate the benefits that would flow from such steps while 
also making clear the process will take time. This would have 
the twin benefits of making clear the current regime is not 
democratic while helping to set expectations in the event the 
regime actually did collapse.
    The administration in my view should publicly relaunch a 
revitalized Iran democracy fund and/or bolster the National 
Endowment for Democracy's ability to support democrats inside 
and elsewhere. As you know, Mr. Chairman, the administration 
has renamed the program the Near East Regional Democracy, or 
NERD, fund, and has defunded a number of prominent grantees 
including the Yale Human Rights Documentation Center.
    Critical in the medium term is to do something dramatic to 
improve the voice of America's Persian News Network. Poor 
management and a lack of proper editorial board are currently 
robbing PNN of most of its impact. The administration should 
finally and expeditiously move forward on targeted sanctions 
against IRGC leadership and companies, but not in an 
incremental manner. Instead it should execute all prospective 
targeted sanctions at the same time as a single tidal wave to 
boost intended effectiveness and strengthen their political 
impact inside Iran.
    At this critical juncture of Iran's turbulent history, it 
is clear that the regime is vulnerable, and the reason for that 
vulnerability is the deepening legitimacy crisis spurred on by 
the green movement. Expressing solidarity with the aspirations 
of the Iranian people at this moment will reinforce the 
regime's paranoia and may yet tip the balance in favor of those 
committed to reshaping or even overthrowing this regime. A 
change in regime provides the best safeguard against a nuclear 
Iran and may even usher in a period of U.S.-Iranian partnership 
that could radically impact U.S. efforts to stabilize both 
Iraq, Afghanistan, and the broader Middle East. Thank you very 
much, Mr. Chairman.
    [The prepared statement of Mr. Carpenter 
follows:]<greek-l>Scott Carpenter deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you very much. I will yield myself 5 
minutes. First do no harm, that was not made up by me, that was 
Hippocrates' advice to physicians who had good intentions of 
going out and helping people, that was the first rule of 
advice. So I went and I saw this movie some time ago, it had a 
lot of bad guys in it, I think it was called The Godfather. And 
there was this guy there that, every time he kissed somebody 
bad things happened to them.
    The real question before us is, how do we, and I think we 
have all agreed up here despite the fact that we have some 
divergent views, agreed that we want to help the people in the 
green movement and the people who want a democracy and the 
people who love their country for all the right reasons. How do 
we embrace them without it becoming the kiss of death? How does 
that happen? We can say things, we can do things, we can spend 
money, how do we do that?
    We need to have some ideas to consider that do no harm. 
Because it seems to me that the bad guys there are wiping out 
the good guys as soon as they can get their hand on them. And 
my good friend from California spoke to the issue of the 
democracy movement in Poland, and I would remind us that it was 
not the overt action of an American President--the leader of 
the free world who had F-16s at his disposal, the world's 
greatest superpower, with nuclear weapons, that really 
triggered this--but it was a quiet man of peace who represented 
millions and had no military division whatsoever whose plane 
landed from Rome and got out and uttered the historic and 
biblical words, ``Be not afraid.''
    And it was that very inspirational statement from the Pope 
at the time to a very Catholic nation that inspired them to 
take the actions that they needed, knowing that they had world 
opinion, and more importantly right, on their side. It would 
have been a very different message if the chief rabbi of 
Jerusalem delivered it or the imam of all imams, but it was 
somebody with whom they could relate. Should there not be a 
different messenger, possibly, of this message? Is there an 
uber-imam that could come from somewhere and land in Tehran and 
tell people not to be afraid? Are there things that we can--and 
there were some suggestions here by the panel--specific action 
that we can take without putting the sign of death on the very 
people that we want to help? That is my question. Mr. Khalaji?
    Mr. Khalaji. I think you are completely right, there are 
some measures that if the United States take them it would harm 
this movement significantly. I am against any sort of financial 
support to political groups or any explicit support to the 
political figures. These are sort of thing that hurt this 
movement. But I think that many people who are involved in the 
nuclear program and are threatening the peace in the region----
    Mr. Ackerman. I have 1 minute left, and I want everybody to 
answer, so if we could?
    Mr. Khalaji. Yes. They are the same people who are cracking 
down on people. And I think that putting pressure on these 
people specifically, especially IRGC people, especially 
Khamenei and people around him, will help a lot.
    Mr. Ackerman. Ms. Abdo?
    Ms. Abdo. Thank you. I would recommend two tangible things. 
As we have said in this meeting, emphasis on human rights 
violations, because this will cause the base perhaps that still 
supports the regime to take a different position. And two, 
anything that could be done to address Iranians' access to the 
Internet and communications so that they can communicate with 
each other in order to mobilize their movement. Thank you.
    Mr. Ackerman. Dr. Ghadar?
    Mr. Ghadar. In addition to what has been said, I think the 
corruption and the nepotism in the regime should be 
highlighted. The Revolutionary Guards are raping the country. 
In addition to the human rights, they are pilfering the 
country. This should be highlighted, and this is the cause of 
the Iranian economic malaise and desperate situation, 
unemployment and inflation.
    Mr. Ackerman. My time is up, but if I could be indulged? 
Because I don't want to cut off the witness questioning by the 
distinguished minority member.
    Mr. Burton. You are the boss, whatever you say goes.
    Mr. Ackerman. It doesn't mean I am not going to cut you 
off, Dan.
    Mr. Rohrabacher. I move to give the chairman 2 additional 
minutes. Ask for unanimous consent.
    Mr. Ackerman. Just 30 seconds, if you will, Mr. Carpenter.
    Mr. Carpenter. Thank you. As I said, in my written 
testimony I have included a number of suggestions, but I do 
think it is important that the President and senior members of 
the administration be able to speak out as indicated on the 
human rights issues, putting us squarely on the side of the 
human rights issues, while finding ways to create platforms for 
the opposition themselves to be able to organize and speak to 
one another to support them, whether on the Internet or 
satellite radio or even satellite television. Thank you.
    Mr. Ackerman. Thank you very much, and I thank the 
committee for your indulgence. Mr. Burton.
    Mr. Burton. Thank you very much, Mr. Chairman. You know, I 
was reading some of the information about what they have been 
doing to these demonstrators, and as I understand it they have 
killed two, they have executed two last week. There are 16 more 
that are going on trial I guess Saturday, or this past 
Saturday, and nine more have been announced for execution next 
week. I just can't believe that we should stand by and see 
these kinds of atrocities take place because people just want 
freedom.
    And so I was a little upset when Admiral Blair, who is the 
National Director of Intelligence, indicated that the 
protesters had little chance for success. He said 
``Strengthened conservative control will limit opportunities 
for reformers to participate in politics or organize 
opposition.'' He went on to say ``The regime will work to 
marginalize opposition elites, disrupt or intimidate efforts to 
organize dissent, and use force to put down unrest.''
    Now he may believe that, but I just think that is the wrong 
message to send. I mean if we don't give money, if we don't 
give any kind of tangible support to the people who are 
demonstrating, we should at least in my opinion say, you know, 
we wish you success, we want to see freedom reign, and we want 
to do everything we can--without interfering in your process 
over there directly--we want to do everything that we can to 
encourage freedom, democracy, and the things that we believe 
in. And that really concerned me that he said that.
    Now, if the current regime were somehow to fall due to 
internal pressure, who would be best situated to take power 
there? And those currently pushing for reform, would they be 
the best ones or would there be other hardline people waiting 
in the wings to take over? And one other thing, some have 
worried in the past that the imposition of sanctions would 
drive the Iranian people toward their government. If we impose 
sanctions, if we could get our friends around the world to 
impose sanctions with us, would that drive the Iranian people 
toward the regime, would they be neutral, or would this 
encourage them to push harder for reform? And we can start at 
either end. Start at this end this time.
    Mr. Carpenter. Well, in terms of sanctions, what we have 
heard, or I have heard from people in green movement, is what 
they want are sanctions that are short and sharp and that shock 
the system. And as we all know, the international community 
does not tend to work in that way. As we have heard, sanctions 
tend to be least common denominator, they are not designed to 
shock, and that is what would be most helpful. They want to 
avoid what happened in Iraq where there is this slow ratcheting 
up of sanctions that end up hurting the Iraqi people and the 
system within Iraq so desperately that it creates real 
problems. So I think they are open to sanctions, but they have 
to be short and sharp.
    Mr. Burton. What do you mean by ``short and sharp''?
    Mr. Carpenter. Well, the gasoline embargo that the Congress 
has been considering and asking to put toward the President, I 
think that is the type of thing that would have a potentially 
huge impact. The second thing I would say, again, I want to 
come back to the Iran Democracy Fund. And with deference to my 
colleague, who I love like a brother, he is my marja, but I 
have heard people in Europe who are working in the green 
movement begging for more assistance as journalists are being 
forced to flee Iran, journalists who had been operating inside. 
And those funds have been cut off by the State Department. So 
there are things we can do, we don't have to talk about it all 
the time, I don't suggest that we talk about it. Sorry.
    Mr. Burton. Go ahead, I am running out of time, I want to 
make sure everybody gets the chance to give their opinion.
    Mr. Ghadar. If we break down sanctions into three 
categories, the most effective has certainly been going after 
the money of the Revolutionary Guards, targeting them, 
identifying them, taking them over. Furthermore, I think we 
should highlight the pilferage that is occurring. Iranians are 
very sensitive to corruption. We should highlight the 
corruption over and over again, the system is corrupt, we 
should take that to them. Foreign direct investment sanctions 
have been effective but they are long term. In my opinion, 
trade sanctions have not been effective, they won't be 
effective, they will hurt the population. I constantly hear 
that airplanes are falling from the sky, and they blame us for 
not being able to get components from Boeing.
    Mr. Burton. Can we do 30 seconds for each of the other 
witnesses?
    Ms. Abdo. There have been several meetings of people within 
the green movement in Europe. And one thing, even though there 
is a great debate among them, one recommendation they do make 
is that there is some sort of funding for civil society 
organizations that doesn't come from the U.S. Government 
directly. This, they believe, will help their organizations 
without tainting them with something like a democracy fund. So 
their recommendation is that it come from unofficial or 
nongovernmental organizations. Thank you.
    Mr. Burton. Dr. Khalaji?
    Mr. Khalaji. Regarding to the potential scenario for the 
end of this crisis, I think that the world, and especially 
United States, plays an important role in shaping the future of 
Iran. Because if the efforts we make now, it leads to the 
weakening of the military body of the Iranian regime, the 
possibility of establishment of a military government after 
this crisis would be less. Because I think one of the scenarios 
which is likely is, after the weakening of Khamenei and the 
civilian politicians, Revolutionary Guard comes from behind the 
scene to the front. So it is a big danger, but we can prevent 
it by confronting this IRGC now.
    Mr. Ackerman. Thank you. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chairman. Very quickly, we have 
heard terms in the press, terms like mullah government, but 
isn't it true that one of the things going on now is that 
members of the opposition are part of the clerical 
establishment and the IRGC is starting to sort of take over and 
militarize the government? So to describe the government now as 
just a mullah government is sort of not accurate, am I right or 
wrong? It looks like Ms. Abdo is nodding agreeably, do you want 
to elaborate?
    Ms. Abdo. Yes, you are absolutely right. One of the most 
important results of what has happened is that even though much 
of the clerical establishment had grown very, really in quiet I 
guess opposition of the state, what has happened now is that 
those internal private debates have become public. And 
conservative clerics now are opposed to the system. In fact, I 
don't know if some of you read some of the news reports, but 
the Chief Justice of Iran now, Mr. Larijani, who is the brother 
of the Speaker of Parliament, made statements this week that 
politics should not enter the judicial system, that he will not 
take orders to execute people anymore, that there has to be a 
judicial process. So if someone who is a staunch hardliner, 
such as Mr. Larijani, who is also a cleric, is now publicly 
opposed to the state, this means that the cracks within the 
system are pretty profound. And this has happened, as you point 
out, Representative Ellison, that this has happened actually 
throughout the clerical establishment.
    Mr. Ellison. And in fact Mr. Karoubi is a religious leader 
as well, isn't that right?
    Ms. Abdo. Yes, he is a religious leader as well.
    Mr. Ellison. And he is an opposition leader. Mr. Khalaji?
    Mr. Khalaji. Yes, as a former seminarian and who has 
studied in the clerical establishment for 14 years, I would say 
that the clerical establishment in Islam, especially in Shiism, 
is completely different than other religions like, you know, 
Christianity and Catholicism. So when somebody wears robe and 
turban, it doesn't mean that he is necessarily a religious 
leader or religious authority.
    Mr. Ellison. Okay.
    Mr. Khalaji. So Karoubi is known in Iran not because of his 
religious authority but because of his political record.
    Mr. Ellison. Thank you for your inclusion. I only have 5 
minutes, so please do forgive me. I appreciate your remarks 
though. You know, you all have talked about sanctions and tried 
to come up with smart sanctions, I have a question for you 
hypothetical. If the people of the democracy movement believe 
that all we care about is the nuclear issue, not their human 
rights, and if our response to what they believe our concerns 
are is to deprive the average Iranian of gasoline, what will be 
the impact of that? And is that scenario a possibility? Dr. 
Ghadar?
    Mr. Ghadar. I absolutely agree with your comment. Let me 
just briefly on the previous one, my fear is even more 
exaggerated than you articulated. I am afraid that it is in 
fact the Revolutionary Guards that are calling the shots and 
Khamenei is afraid to do anything, but I don't have proof for 
that, but just the fact that they are the instrument as holding 
control. With regard to sanctions, I believe sanctions that 
hurt the people will ultimately hurt us, okay?
    I mentioned the airlines, I don't think gasoline is going 
to be effective, I think that what the government will just 
basically reduce, they have no smart cards, the smart cards 
will basically the amount allocated was 100 liters a month, 
last month they reduced it to 80, you can buy it on the black 
market four times the price, the Revolutionary Guards have 
cards that they can use, they can even sell it on the side. 
Sanctions has allowed the Revolutionary Guards to basically 
play a role in smuggling and profiting from the market, and 
also on foreign direct investment making all the major 
investments themselves.
    Mr. Ellison. Thank you, Doctor, and please forgive my 
abruptness, they only give you a few minutes. I actually 
introduced a sanctions bill, and the bill I am introducing is 
called the Stand With the Iranian People Act, I call it SWPA, 
but what it does is that it prohibits procurement contracts 
with persons or entities that provide censorship or 
surveillance technology to the Government of Iran, it 
encourages U.S. allies to deny visas to Iranian officials who 
have carried out human rights abuses, it affirms the importance 
of diplomacy with Iran in order to advance national security 
interests of the United States, and it also encourages work 
with the U.N. to investigate human rights abuses, and finally 
it enables U.S. American NGOs to provide humanitarian 
assistance directly to Iranian people. Now I know you haven't 
read my bill, but just conceptually based on what I have shared 
with you, what do you think in the last 4 seconds? Just if I 
could ask for unanimous consent for 1 minute, maybe 2?
    Mr. Ackerman. Let us give 30 seconds.
    Mr. Ghadar. I think that is a great idea. I would also add 
to that that allowing Iranian students to come to the United 
States, allowing maybe a consulate to be opened so that 
actually Iranians can see that we are open to them.
    Mr. Ellison. Did you say consulate?
    Mr. Ghadar. Consulate, yes.
    Mr. Carpenter. Representative Ellison, I have read your 
bill and I think it is a good bill. I think there have to be 
some safeguards put in place on the humanitarian assistance 
side, OFAC licensing, et cetera. And I also think you should go 
further in terms of allowing certain communications equipment 
and other things for NGOs to be able to distribute, again with 
that oversight. In terms of the broad----
    Mr. Ackerman. We are going to have to just keep moving.
    Ms. Abdo. I think your bill is perfect. I mean I think that 
those are practical recommendations that are practical and that 
wouldn't necessarily taint the movement.
    Mr. Khalaji. I think they are excellent. Just one thing, 
along with banning visa for Iranian officials we have to 
facilitate the visa for ordinary Iranians. This is the 
nightmare of Ayatollah Khamenei to see Iranian people connected 
to the world outside.
    Mr. Ellison. Thank you.
    Mr. Ackerman. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman. And let me be the 
contrarian that I guess I have been designated to be on this 
committee. And let me just say while I have great respect for 
my very creative and I wouldn't mind saying a new force here in 
Congress, and we certainly appreciate his ideas, but let us 
take a look at where is the pivotal spot over there. What is 
going to make the change? We are not talking about the 
Revolutionary Guard, we are talking about the factor that gives 
the mullahs the right to determine who will run in the 
election.
    It is the mullah's power to determine who will get on the 
ballot and respect for that power that keeps that regime in 
place. Take away that, and have anyone who wants to run on the 
ballot be free to get on the ballot, that regime would 
disappear. So it is the mullah regime that is the enemy. The 
Revolutionary Guard, where does their power come from? It comes 
from the fact that no one can run on the ballot unless they are 
approved by the mullahs and they are not going to let anybody 
in who is against the establishment.
    The changes that happened in Poland and the disintegration 
of the Soviet Union happened for a number of reasons. Yes, the 
Pope played a major role, that was great. But let us note it 
wasn't just the Pope. Ronald Reagan had meetings in the White 
House with people who were resisting the Communist dictatorship 
in Poland and elsewhere, he participated in rallies in which 
the people who were struggling for freedom in Poland 
participated. That type of endorsement we do not have today by 
this administration, and we need that kind of endorsement.
    The President of the United States and all of us should 
identify and embrace people who are struggling for freedom in 
Tehran, and we have not done that. And the chairman is 
absolutely right when he says this isn't the only 
administration that has held off from that type of approach, 
you are absolutely right in that, Mr. Chairman, and I am not 
just leveling criticism at Obama who has been in the presidency 
now for just 1 year, but for the entire administration that 
preceded him.
    I am going to be asking Mr. Chairman and the subcommittee 
in which I am a member to hold hearings into broadcasting and 
what quality of broadcasting we have going into Iran and 
elsewhere. I am sitting next to one of the heroes of freedom 
broadcasting, and Ed will certainly have some comments on that 
in a moment I am sure. Finally, about what we can do, go after 
the money. These mullahs are corrupt.
    They are not only repressive, they are not only part of a 
repressive regime, they are part of a corrupt regime that is, 
as you say, just robbing the people of Iran blind. They are 
sucking the wealth away from that society, and much of it goes 
into banks in the West. We should make it our job, and Mr. 
Chairman, I would suggest that we in the Congress call on this 
administration to identify and locate those funds that have 
been taken from the people of Iran by the mullah leadership and 
to seek to have those funds frozen and perhaps even put into a 
freedom fund that could be used by those people struggling for 
democracy in that country.
    Those things would be seen as real, not only by the people 
in the streets but also of course by the people in power. We 
need to do more than just every now and then reconfirm that 
supposedly we are on their side but we are going to have 
patience and think about what actions we should take. We have 
heard some great suggestions today, I think we should follow up 
on those suggestions, we should be powerful in our advocacy of 
democracy, and we should be courageous in aligning with those 
people who are struggling for democracy in Tehran and 
elsewhere.
    That is the way to build a more peaceful world, and if we 
had people here talking about China I would be saying exactly 
the same thing. People around the world who want democracy are 
our greatest allies, whatever country they come from. Iran is 
not our enemy, the Iranian people are not our enemy. The 
Chinese people, the Iranian people, all of those people are our 
greatest allies in this struggle. We recognize that, Ronald 
Reagan recognized that, and that is how we defeated Communism. 
We need to have that same type of identification of our allies 
now as we face radical Islam in the future. So thank you very 
much, Mr. Chairman, for this. Unfortunately there is 3 seconds 
left. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I would ask that 
my opening statement be entered into the record at this point.
    Mr. Ackerman. Without objection, all members' statements.
    Mr. Connolly. I thank the chair. You know, picking up on my 
friend from California's last comments, I am certainly totally 
sympathetic with his point of view, but something that concerns 
me about U.S. identification with what seems to be clearly a 
truly indigenous mass movement in Iran is that we are between 
the rock and the hard place. Too much identification, public 
identification, by the United States with such a movement could 
put in jeopardy such a movement and play into the hands of the 
hardliners who want to make the argument that dissent is in 
fact an import from foreigners who are up to no good like ``the 
great Satan America.''
    And on the other hand, you know, we don't want to be silent 
in the face of human rights violations by the current regime, 
and we certainly want to hold out some lifeline that is 
meaningful to those who have the courage to go to the streets, 
the barricades, to speak up for human rights and freedom in 
Iran. So I guess I would ask the panelists to comment briefly, 
keeping in mind our time, but would you comment on the 
indigenous nature of this mass movement and maybe its prospects 
of success, and your guidance to us and to the United States 
Government about where is that fine line that we not have 
unintended consequences? Mr. Carpenter.
    Mr. Carpenter. Thank you. Dissent as an import, that is the 
accusation the government is already making, they are already 
saying that this is a United States, British effort to 
undermine the regime and anybody who participates is a traitor 
to the regime. So the fact that we stand back and dissociate 
ourselves with it doesn't change anything, they continue to do 
it. So we might as well help in the way we can by associating 
ourselves strongly with them on the ground in terms of support 
on the human rights basis. No one buys it in Iran that the 
British and the United States are at the base of this movement.
    Mr. Ghadar. Congressman, I think two things. One, we need 
to make sure that we inform the Iranians of what is going on so 
they know what is going on. And then we need to take steps for 
their voices to be heard, whether it is on TV or Internet. I 
don't think neither of those are going to put us between a rock 
and a hard place. However, the critical issue is, the Iranians 
on one hand want freedom, which we support completely, but on 
the other hand want independence. And it is that battle where 
the opposition is asking for freedom and the regime is saying, 
you are stooges of the opposition. So it is a fine line we 
can't cross. But informing them and making sure their voices 
are heard is not going to cause problems for us.
    Ms. Abdo. Congressman, you raise an important issue which 
we haven't touched upon so much today, and that is, what is a 
realistic scenario and how can the opposition really make a 
difference? And I think that at least in the short term the 
most realistic scenario is not the opposition in retreat, 
neither is it regime change. But it is a compromise, some sort 
of unity government that has been discussed in Iran.
    And that is why it is necessary to empower the opposition, 
so that they can be well placed politically to extract 
concessions from the regime, such as perhaps President 
Ahmadinejad will remain in power but perhaps their own 
representatives might be allowed to enter government in some 
way. There are parliamentary elections coming up as well. 
Ordinarily, historically, reformists are often barred from 
running in these elections. It would be important to have more 
reformists in the Parliament. So there are many things that 
could happen within the political structure if the opposition 
movement were in a better position than it is today.
    Mr. Khalaji. I think that, we don't know what happens, but 
what we are certain about is that Khamenei as the Supreme 
Leader would not have any strong place in the future of Iran. 
Whether green leaders reach to some sort of agreement with the 
government, whether Revolutionary Guard takes power, whether 
regime changes, in any possible and likely scenario, Khamenei 
would not be there. Second is that I don't believe that green 
leaders can compromise with the government. Or it is better to 
say that I don't think that the government accept to compromise 
with the green movement. What I expect is two extreme sides of 
this spectrum, either the collapse of the regime or a more 
militarized regime in Iran.
    Mr. Connolly. Thank you, my time is up. Thank you, Mr. 
Chairman.
    Mr. Ackerman. Thank you. Mr. Fortenberry.
    Mr. Fortenberry. Well thank you for your excellent 
testimony and for unpacking some of the delicate dilemmas that 
present itself in trying to stand with something that is very 
important without interfering with its eventual positive 
outcome. In that regard, I want to tell you all that many of us 
discussed behind the scenes when the opposition movement first 
appeared as to what the proper response would be, trying to 
determine this line between prudence and risk taking, not 
trying to do something in support of the opposition that would 
actually undermine it by giving a pretext for its crackdown by 
the government.
    And so I chose prudence, I chose to remain quiet, because I 
thought until we had a better understanding of the resiliency, 
the depth, the passion, the willingness to sacrifice, the 
continuity of this potential movement, that given the past 
history with the United States we could inadvertently lead to 
its crushing. It is different now. I think that we as an 
international community with one collective voice need to shout 
from the hills the Iranian people's right for autonomy and 
their right to protest and their right to seek a more just form 
of governance.
    And so I think this hearing is part of that speaking out, 
Mr. Chairman. And with that said, that touches upon some of 
what your concerns were, Mr. Carpenter, in trying to determine 
when is the appropriate time to speak and speak loudly. And 
even if it gave further pretext as you are suggesting, we are 
already being blamed, I have heard that, so what harm can come 
from it? But with that said, Dr. Ghadar, you said there is 
three possible outcomes.
    I want you to assign a probability to those possible 
outcomes, one, that the movement is crushed, two, that it finds 
some common ground, some compromise for its accommodation with 
the current governmental structures, or three, it results in a 
paradigm shift in the form of governance in Iran. Because this 
comes back to that point as to what to do as well as when to do 
it. Assign a probably.
    Mr. Ghadar. That is a very difficult thing to do, but I 
will be glad to give you my biased point of view.
    Mr. Fortenberry. I would prefer you do it than me.
    Mr. Ghadar. Okay. I think the likelihood of the 
Revolutionary Guard's beating up on everybody is quite high on 
February 11th, but that is not going to basically dissipate the 
problem. So I would give that a low probability of 10, 15, 20 
percent. I think the probability of the demise of the regime is 
highly optimistic, I don't think they are going to just walk 
away. So the bulk of the probability, maybe 60-65, 70 percent, 
is going to some kind of compromise. These guys are all in 
cahoots together, with all due respect, Mousavi, Karoubi, 
Khamenei, Rafsanjani, they all basically have the same roots. 
The opposition in the streets are ahead of all of them. 
Therefore, the compromise will be made among them behind closed 
doors. How it will be done, I don't know.
    Mr. Fortenberry. If you agree to that level of probably for 
that outcome, what will these compromise structure look like, 
would anybody have any insight into that?
    Mr. Ghadar. I think there is going to be a reduction in the 
influence of the Supreme Leader, I think there will be 
additional opposition members in the Parliament, and I think 
that Mr. Rafsanjani will play a more active role as a mediator.
    Mr. Fortenberry. Go ahead, Mr. Khalaji.
    Mr. Khalaji. For the same reason Dr. Ghadar mentioned, I 
think that the compromise won't happen. The relationship 
between green leaders and the government is like the 
relationship between Iran and United States, there is a mutual 
distrust. When Iran is powerful it doesn't want to compromise, 
when they are weak they don't want to compromise. That is the 
situation exactly now with the green movement and government.
    Mr. Fortenberry. I understood this point as well that what 
started out as opposition to what was considered to be a 
fraudulent election has now matured and moved way beyond that.
    Mr. Khalaji. Exactly.
    Mr. Fortenberry. Tapping into a root of opposition that has 
been festering--not festering, organically growing--for a long 
time because of all of the abuses. I think I am done, Mr. 
Chairman.
    Mr. Ackerman. Thank you. There are votes that are being 
called momentarily on the floor. If we all keep to or under our 
5 minutes I think we can get the last two members and the 
witnesses' response. Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. Many have looked to 
history, and particularly in Indonesia and the demise of 
Suharto, the exposure of his corruption that led to the demise 
of that regime. Some news reports have suggested that the 
Supreme Leader Khamenei has up to $30 billion in assets. And 
even if that is not true, it still appears that there may very 
well be serious corruption that exists within his own personal 
life.
    Some of the reports say that he owns over 200 walking 
sticks or canes, one of which has an encrusted diamond in it, 
also that he may have ownership of eight airplanes. One, how do 
we confirm or how are we confirming that those statistics are 
true or not? How widely known or suspected is the level of 
corruption of Khamenei, does the public know about it? And what 
else is being done to bring attention to the corruption that 
exists within the mullah regime? Obviously, as I think what I 
heard from the testimony, that everyone here believes that the 
shine is off the apple, but to what degree is that the case and 
what is being done to further expose that? And if anyone 
politely would like to respond?
    Mr. Ghadar. Congressman, it is difficult to say how much 
money he has got, but I will give you some examples. There are 
reports that around $250-300 billion of Iranian money is 
invested via Dubai. Okay, where does this money come from? Who 
makes $250 billion? That is not the salary of the Supreme 
Leader, okay? We can track that down, we can put pressure via 
UAE on Dubai to find out what is going on. Much of this 
transaction has to go outside of Western banks, but we do have 
some pressure on those institutions to find out what is going 
on.
    Right after the election, the foreign exchange reserves of 
Iran dropped dramatically. There was clearly money flowing out 
very rapidly. Where did it go? I don't know, but I am sure that 
our Treasury can play a very active role in identifying that. 
There were reports that a truck was found in Turkey with 
billions of dollars of gold and currency, where did that go? 
The Turks confiscated it and I don't know where the 
negotiations are going on. There are numerous examples of this, 
the question is do we have the will to go after it? That is not 
going to step on the Iranian opposition, the Iranian opposition 
will support this move. Talking about it, broadcasting about it 
will be positive.
    Mr. Crowley. I appreciate that in terms of adding 
additional suspicions, but really more to my question, is it 
believed, what is the level of credibility within the Iranian 
people that that is the case and what is being done to expose 
more of that?
    Mr. Ghadar. I believe the Revolutionary Guard members who 
have won all the contracts are highly suspect. After the 
foreign direct investment was held out, the major contracts, 
anything over $1 billion was given to the Revolutionary Guard, 
the Tehran metro, the gas biplane goes to Pakistan, the gas 
operation Qatar. I think the Iranian population questions the 
Revolutionary Guards. I don't know to what extent they will 
question the Supreme Leader.
    Ms. Abdo. Yes, I would agree, I think that there is a great 
difference in how the public views the Supreme Leader versus 
the Islamic Revolutionary Guards, and very little is known 
about Khamenei and his wealth. But I would also like to just 
add quickly to a suggestion that was made earlier. Even though, 
as you mentioned, Congressman, the legitimacy around Khamenei 
has certainly been damaged, I think that if we are talking 
about restructuring, you know, the government, I think that we 
can assume that he will remain in power until he dies.
    I mean even though his power might be diminished and there 
is much more of a move now to rule by consensus within the 
power structure, I don't foresee any time in the near future 
when, even though his legitimacy has certainly been affected by 
this crisis, that he will step down from power or that he 
still, you know, won't have a primary decision making role. 
Thank you.
    Mr. Khalaji. It depends what we mean by the economic 
corruption. As far as I know, there is no evidence that 
Khamenei collects money for himself. He has a very simple life. 
But he controls the wealthiest organizations and companies in 
Iran, which are actually in charge of financially supporting 
Hezbollah, Hamas, extremist groups, and other dangerous group 
in the region. And they are in charge of actually expanding the 
power of Khamenei inside the country. Khamenei has lost his 
religious and political legitimacy, but it is not known in Iran 
as a symbol of the corruption.
    Mr. Crowley. Thank you very much.
    Mr. Ackerman. Thank you. The gentleman's time is expired. 
Final five.
    Mr. Royce. Thank you, Mr. Chairman. I was going to ask a 
question of Ms. Abdo. And you and your colleagues have all 
raised this issue of human rights abuses of the Iranian regime. 
Has the Obama administration shown any inclination to raise 
that issue at the U.N. in order to try to broadcast that out 
across the international community?
    Ms. Abdo. So your question is?
    Mr. Royce. Has it been brought before the U.N.? In the past 
I have been involved in human rights issues where we have tried 
to get different countries, we have inquired as to why not 
raise these issues, human rights issues, at the U.N. level. And 
my question, is there the inclination by this administration to 
raise it at the U.N.?
    Ms. Abdo. To my knowledge, this administration has not 
raised it. And I think that one suggestion that has been made 
is, rather than try to get, say, the U.N. General Assembly to 
pursue any sort of investigation, that it might be more wise to 
have the Human Rights Commission within the U.N. pursue such an 
initiative. I know that in the past a body of the U.N. has had 
negotiations with Iran and European diplomats over human rights 
issues, and what the Iranians tried to do at that time was to 
tie the nuclear issue to the human rights issue. So, you know, 
we will make compromises on this issue if you are going to, and 
that didn't really work.
    Mr. Royce. And you concur with me, I mean our whole problem 
here is that we are not focusing on human rights, and it seems 
to me the ghoulish show trials that we are seeing there and the 
rapes of people in detention and the deaths on the streets and 
in the universities, all of this, all of these human rights 
abuses, which in terms of the atrocities, the photographs that 
we see, we have the documentary evidence here, it seems that 
the key issue here is, can the West get these facts out so that 
the entire international community and everyone in Iran are 
confronted with the facts?
    Can we assist on that or are we going to be preoccupied on 
other questions and not engaged on what needs to be broadcast? 
And then the second question I would ask you, ma'am, is there a 
way to guarantee that we do a better job? I have been involved 
with legislation, authoring legislation for broadcasting into 
Yugoslavia, too late, into Afghanistan, too late. But here we 
have an opportunity to do what we did too late into Burma, and 
that is establish the facts for people on the ground in terms 
of what is actually happening. And in the past we haven't 
always done such a good job in terms of how we have delivered 
that message. I would like your critique on that too and how we 
could help.
    Ms. Abdo. Well, as a former journalist, I can tell you that 
media is very powerful. And as we have seen with these 
demonstrations the BBC Farsi Service has made an enormous 
impact in providing exactly the kind of information that you 
are talking about. Now, having said that, I think that that 
kind of sort of example or paradigm can't really apply to Voice 
of America, primarily because Voice of America is associated in 
a way with the U.S. Government that BBC is not. And so I think 
that for a lot of reasons, in addition to the fact that BBC 
Farsi Service is just a superb, superb news organization, it 
has had a great effect, but it has been very powerful.
    Mr. Royce. Your critique on all of these other issues is 
very helpful, and we will try to implement them to the greatest 
extent possible. We don't have a critique from you, and we get 
a lot of advice in terms of what we ought to do in terms of 
public diplomacy. If you would ever feel inclined, given your 
background, to write up some suggestions based upon your 
observations, I would like to see them and I think probably 
some of the other members of this committee would look forward 
to those observations.
    Ms. Abdo. Thank you, I am happy to do that.
    Mr. Royce. Thank you. I think I have a few more minutes. 
Anyone else want to make a comment on this?
    Mr. Khalaji. I think that one of the way that United States 
can support human rights in Iran is to use its channels to 
religious leaders of the world and have them put pressure on 
Iran, especially on the Supreme Leader, because the Iranian 
leader, he consider himself as the religious leader and the 
leader of Muslim World. So for example we have seven Baha'is in 
prison, they are held without any reason, and they are at risk. 
And we have many other people, if you have dozens of Sunni 
religious activists, they are in prison. So we can use these 
channels and ask different religious leaders in the world, 
write a letter to Ayatollah Khamenei publicly and criticize him 
or respectfully ask him to end this human rights abuse in Iran.
    Mr. Ackerman. And that will have to be the last word.
    Mr. Royce. Thank you very much. I appreciate it.
    Mr. Ackerman. The gentleman's time is expired, the 
committee's time is expired. Let me thank the panel for their 
indeed expert testimony, you have been a great help to this 
committee. I am very proud of the committee's number of people 
who participated today, the great questions and the thinking 
that went into them and the responses by our witnesses who have 
been a great help to the process. Thank you all very much. The 
committee stands adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Burton statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
